                                         CLOSEOUT FOR MOlOlOOOl

        This case came to OIG on January 9,2001, when a program officer in NSF's Directorate
for Social, Behavioral, and Economic sciences1 informed us that a proposal reviewer2 had
alleged that a proposal3 submitted by the subject4made unattributed use of hypotheses that had
appeared earlier in the published work of another scientist. The reviewer pointed to three
publications by the other scientist5that he believed the subject should have cited as the source for
her hypotheses and alleged that the subject's failure to fully acknowledge her debt to these works
constituted plagiarism. The reviewer noted that the subject cited these three works at other points
in her proposal, but said that "she should have been aware that her use of the hypotheses required
citation as well."

        OIG examined the subject's proposal and the other scientist's publications. We noted that
in some of the instances in which the reviewer alleged plagiarism the subject had cited the other
scientist's work in a way that suggested this work was a primary source for the propositions the
subject wished to test. In other instances, the ideas that were allegedly misappropriated were not
so distinctive as to permit a conclusion that they derived fiom the other scientist's work. Some
of the uncited hypotheses appeared in footnotes and were presented as components of larger
propositions that the subject wished to test and that were not allegedly plagiarized. OIG
concluded that there was no substance to the idea that the subject has used the other scientist's
work in a way that might constitute plagiarism or otherwise seriously deviate from accepted
practices.

         This inquiry is closed and no further action will be taken on this case.




'f
  f-
 Dr.
                      t h e g r a m in the Division
                         the
                 entitled "
                                                              -
according to the reviewer, are taken fiom the latter article also appear in the book.
